Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  MEDICARE MANAGED CARE
    1998 Marketing Materials




                   JUNE GIBBS BROWN
                    Inspector General

                      FEBRUARY 2000
                      OEI-03-98-00271
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

Isabelle Buonocore, Project Leader                   Stuart Wright, Program Specialist
Erika Q. Lang, Program Analyst                       Tricia Davis, Program Specialist




 To obtain copies of this report, please call the Philadelphia Regional Office at (215) 861-4551.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                     EXECUTIVE SUMMARY

PURPOSE

      To determine how well marketing materials met Federal guidelines in the first year after
      implementation of the Medicare Managed Care National Marketing Guide.


BACKGROUND

      The Health Care Financing Administration (HCFA) has authority to establish how
      managed care health plans with Medicare contracts provide information to beneficiaries.
      The health plans are required to submit marketing materials to HCFA regional offices for
      review and approval before distribution. Marketing materials include pre-enrollment
      materials (e.g., advertisements and sales brochures) and member materials (e.g.,
      membership rules and notices of change in benefits). The HCFA regional staff keep track
      of the marketing-material reviews.

      The Medicare Managed Care National Marketing Guide (hereinafter called National
      Marketing Guide) was issued in November 1997. It serves as an operational tool for
      managed care plans and HCFA regional offices, and outlines what information is required
      or prohibited in marketing materials. While some instructions in the National Marketing
      Guide are voluntary, others are mandatory. The National Marketing Guide’s most
      important goal is to “provide Medicare beneficiaries with current, accurate, consumer
      friendly, managed care marketing information that will assist them in making informed
      health-care choices.”

      We reviewed 319 marketing pieces approved by HCFA during calendar year 1998 in order
      to determine how well marketing materials met Federal guidelines. We also conducted a
      subjective review of whether the materials were consumer friendly.


FINDINGS

Few 1998 Approved Marketing Materials Were in Full Compliance with the
National Marketing Guide

      Only 13 percent of HCFA-approved materials which we reviewed (41 of 319) met all
      requirements of the National Marketing Guide. The 87 percent not in full compliance
      either (1) contained statements specifically prohibited, (2) had missing, incomplete, or
      inaccurate information, or (3) did not meet print-size requirements.


   1998 Marketing Materials                    1                                      OEI-03-98-00271
Nearly Half of Materials Reviewed Were Not Consumer Friendly

      Forty-six percent (145 of 312) of materials were confusing or contained jargon. A
      comparison of pre-enrollment versus member materials revealed that, overall, member
      materials were less consumer friendly.


RECOMMENDATIONS

      Our findings from this report and our companion report, Medicare Managed Care: Goals
      of National Marketing Guide (OEI-03-98-00270), wherein we surveyed users of the
      Medicare Managed Care National Marketing Guide and obtained HCFA tracking data on
      marketing-material reviews, provide evidence that the National Marketing Guide, while
      improving some aspects of the marketing-material review process, was not very successful
      at meeting its most important goal. That goal is to provide Medicare beneficiaries with
      accurate and consumer friendly marketing materials. Inaccurate and confusing materials
      may affect beneficiaries’ ability to make informed health-care choices.

      We recommend that HCFA:

    <	 update the National Marketing Guide. The National Marketing Guide should further
       clarify which information is specifically prohibited or required in marketing materials.
       The National Marketing Guide should provide model materials that are accurate and
       easy to read. It should clarify policy and operational instructions regarding the lead and
       local regional office responsibilities, the Use and File System (which allows plans to
       distribute sales material without prior approval), and the health plans’ use of checklists
       for member materials. It should also ensure that checklists for member materials contain
       all the required information.

    <	 standardize and mandate use of member materials. The HCFA should work toward
       standardizing as many types of member materials as possible. Managed care plans
       should be required to use these materials when communicating with their enrolled
       Medicare beneficiaries.

    <	 develop standard review instruments. These review instruments should be used by
       HCFA staff in determining if marketing materials (both pre-enrollment and member)
       contain all required information and do not contain prohibited information.

    <	 establish a quality control system. The HCFA should periodically review a nationwide
       sample of previously approved marketing materials (both pre-enrollment and member) to
       determine if they meet Federal marketing guidelines.




   1998 Marketing Materials                    2                                     OEI-03-98-00271
   <  track marketing-material reviews consistently and uniformly across all regions.

   <	 conduct meetings to review Federal marketing requirements with managed care
      plans that continually submit materials not in compliance with the requirements.

   <	 provide training on the use of the National Marketing Guide for HCFA reviewers
      and managed care plans.


AGENCY COMMENTS

     The Health Care Financing Administration (HCFA) reviewed our companion reports and
     concurred with our recommendations. The agency is updating the National Marketing
     Guide and plans to promote better understanding of the Use and File System. As of 2000,
     contracting health plans must use a standardized Summary of Benefits. In the future,
     beneficiary notifications such as the Evidence of Coverage will be standardized, and their
     mandatory use will be phased in. In 2001, the agency will have a new and comprehensive
     instrument for collecting benefit data and reviewing marketing materials. In addition, the
     Product Consistency Team will meet monthly and uncover and correct inconsistencies in
     operational or policy interpretations of standardized materials. As to quality control, the
     agency will verify that all final versions of beneficiary notices are the same as versions
     HCFA approved, and will review samples of printed marketing materials. The HCFA is
     also taking steps to address the tracking of marketing material reviews, monitoring of
     contractor performance, and training of staff. Appendix C contains the full comments.

     We appreciate the comprehensiveness of HCFA’s comments. We believe the agency’s
     stated efforts can result in comparable and understandable materials which beneficiaries
     need to make informed health-care choices. We are hopeful that the updated National
     Marketing Guide will include clarification of lead and local regional office responsibilities,
     and clarification as to whether health plans must submit checklists along with the member
     materials they submit for HCFA’s review. With regard to the Product Consistency Team,
     the past team was not fully able to realize the objectives stated in the agency comments
     (uncovering and correcting inconsistencies; updating the National Marketing Guide as
     needed). We are hopeful that the new team has the tools and authority needed to
     accomplish these important objectives.




  1998 Marketing Materials                     3                                      OEI-03-98-00271
                          TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Few marketing materials in full compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Nearly half of materials not consumer friendly . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES


          A: National Marketing Guide’s Language Chart in 1998 . . . . . . . . . . . . . . . . . . . . . . . 16


          B: OIG’s Methods for Reviewing Marketing Materials . . . . . . . . . . . . . . . . . . . . . . . . . 22


          C: Comments from the Health Care Financing Administration . . . . . . . . . . . . . . . . . . . 25





      1998 Marketing Materials                                  4                                                OEI-03-98-00271
                              INTRODUCTION

PURPOSE

      To determine how well marketing materials met Federal guidelines in the first year after
      implementation of the Medicare Managed Care National Marketing Guide.


BACKGROUND

Marketing Regulations

      Title XVIII of the Social Security Act (Part D, Section 1876[c][3][C]) provided the
      Health Care Financing Administration (HCFA) authority to establish how managed care
      health plans with Medicare contracts provide information to Medicare beneficiaries.
      Regulations which list prohibited marketing activities are in Title 42 of the Code of
      Federal Regulations (Section 422.80). Prohibited are activities that (1) discriminate
      against beneficiaries with poor health, (2) mislead or confuse beneficiaries, or (3)
      misrepresent the health plan or HCFA. These same regulations also require managed care
      plans to submit all marketing materials to HCFA for review and approval at least 45 days
      before their planned distribution.

Marketing Materials

      Marketing materials include a wide range of materials used to communicate with
      beneficiaries before and after enrollment in a managed care plan. Pre-enrollment materials
      are essentially sales materials and include newspaper, radio, and television advertisements;
      summaries of benefits; application forms; telemarketing scripts; and slide presentations.
      Post-enrollment materials, more commonly called member materials, include letters
      confirming enrollment or disenrollment; notices about a change in providers, benefits, or
      premiums; letters with claim information; lists of covered and non-covered services; co­
      payment schedules; and subscriber agreements. Subscriber agreements contain member
      rights as well as member and plan responsibilities. Some subscriber agreements also list
      covered and non-covered services.

      Medicare beneficiaries are exposed to marketing materials through different media,
      including literature, billboards, radio, television, informational meetings, and the Internet.
      Regardless of the medium used, plans must get approval from HCFA prior to distributing
      the information.




   1998 Marketing Materials                      5                                      OEI-03-98-00271
Marketing Guidelines

      The Medicare Managed Care National Marketing Guide, hereinafter called the National
      Marketing Guide, became effective November 17, 1997. It supplemented the marketing
      chapter in the Health Maintenance Organization/Competitive Medical Plan Manual,
      issued March 1991. One of the goals of the National Marketing Guide is to “provide
      Medicare beneficiaries with current, accurate, consumer friendly, managed care marketing
      information that will assist them in making informed health-care choices.”

      The National Marketing Guide is an operational tool for managed care plan staff and
      HCFA reviewers. It incorporates Federal requirements, represents HCFA’s official
      position on marketing policy, and contains operational instructions. It explains
      requirements for different types of materials and media. Some instructions in the National
      Marketing Guide are voluntary, and others are mandatory. For example, a chart in the
      National Marketing Guide describes marketing language that managed care plans “Must
      Use/Can’t Use/Can Use” in sales materials. (Appendix A contains the entire chart as it
      appeared in 1998.) The National Marketing Guide also contains model member materials,
      which plans can choose to use or not use. However, when plans create their own version
      of a model piece, they must submit the piece for HCFA’s review along with a HCFA
      checklist showing that required information is in the piece. The HCFA checklists are
      included in the National Marketing Guide. The HCFA policy is that certain information
      must be conveyed to Medicare beneficiaries. However, format and the addition of other
      information are left to the discretion of the health plans.

      The National Marketing Guide was in the process of being updated when we wrote this
      report. The update will include changes to reflect the Medicare + Choice program, which
      went into effect January 1999. The Medicare + Choice program gives Medicare
      beneficiaries additional health plan options besides using a fee-for-service arrangement or
      joining a managed care plan. The updated National Marketing Guide will address these
      new insurance options.

The HCFA Reviewers

      Staff in HCFA regional offices are responsible for various aspects of overseeing contracts
      between Medicare and managed care plans, including review of marketing materials and
      keeping track of the reviews. In 1998, a total of 96 staff members conducted reviews.
      According to reviewers, 31 percent of their time–on average–is spent conducting reviews.
      While reviewing marketing materials is only one of their duties, for some staff it is the
      most time-consuming. In 1998, the median number of hours per week spent on reviews
      was 10 hours, with some reviewers spending as many as 35 hours.

      Reviewers must determine whether marketing materials meet regulatory requirements,
      accurately reflect the health plan’s Medicare contract, and accurately describe benefits.
      Consequently, the review of materials can be extremely complex to perform, requiring


   1998 Marketing Materials                     6                                     OEI-03-98-00271
      attention to numerous details. In the last quarter of calendar year 1998, most of the same
      HCFA staff responsible for conducting marketing reviews were also responsible for
      implementing the new Medicare + Choice program (effective January 1999). The
      program increases the types of health insurance plans HCFA staff must oversee.

Recent Developments in the Review Program

      In August 1999, HCFA issued an operational policy letter which contains new and
      updated models of enrollment and disenrollment letters. The HCFA also created a
      standard form called the Summary of Benefits. All plans are required to use this form in
      fiscal year 2000 when describing their benefits to beneficiaries.

      Currently, HCFA is conducting a pilot study to determine the effectiveness of having an
      outside contractor review marketing materials. The HCFA has also contracted an
      evaluation of the Medicare managed care marketing regulatory program to determine the
      program’s strengths and weaknesses.

Studies by the Office of Inspector General

      Medicare managed care has been the focus of many Office of Inspector General (OIG)
      studies. We have covered HCFA oversight of managed care plans, grievance and appeal
      issues, physician and beneficiary perspectives, beneficiary satisfaction, enrollment and
      service access problems, and use of disenrollment rates as performance indicators.

      We have also addressed managed care marketing within the last three years. In
      Medicare's Oversight of Managed Care (OEI-01-96-00191), we found that while HCFA
      had increased the number of staff responsible for managed care oversight, some staff
      lacked managed care experience. The HCFA staff needed certain skills to evaluate various
      aspects of health plan operations, including marketing. We recommended that HCFA
      develop a more comprehensive training program for staff who oversee managed care
      plans. In Medicare HMO Appeal and Grievance Processes (OEI-07-94-00280), we
      found that many health maintenance organizations had marketing materials and operating
      procedures with incorrect or incomplete information on appeal and grievance processes.
      We recommended that HCFA (1) work with health plans to standardize appeal and
      grievance language in marketing materials and operating procedures, and (2) take a more
      active approach in monitoring the plans.

      As a companion to this report, we are issuing, Medicare Managed Care: Goals of
      National Marketing Guide (OEI-03-98-00270). We found that the four established goals
      of the National Marketing Guide were not completely met but that some aspects of the
      review process had been improved; that certain elements were not well understood or
      applied uniformly; that marketing-material reviews were not tracked consistently across
      HCFA regions; and that HCFA reviewers and health plan representatives felt



   1998 Marketing Materials                    7                                    OEI-03-98-00271
     improvements were needed. The findings from the companion reports were used to
     develop the recommendations contained in both reports.


SCOPE AND METHODOLOGY

     Our purpose in this study was to determine how well marketing materials of managed care
     plans met Federal marketing guidelines in the first year after the National Marketing
     Guide was issued (November 1997 through November 1998). We did not determine
     whether benefits were accurately presented in materials.

     We reviewed 319 pieces of HCFA-approved print materials, 249 of which came from 3 of
     the 10 HCFA regions. Since the materials were approved for use in 1998, our review did
     not include Medicare + Choice materials. We reviewed the materials with 24 OIG-created
     instruments designed specifically to evaluate different types of print materials, both
     pre-enrollment and member pieces. The instruments contained questions related to
     prohibitions and requirements in the National Marketing Guide. We formulated the
     questions from text in the “Must Use/Can’t Use/Can Use” language chart, model member
     letters, checklists, and paragraphs highlighting important things for managed care plans to
     remember. Questions addressed issues ranging from the most critical information
     requirements (e.g., advertisements must state that beneficiaries must continue to pay their
     Medicare Part B premium) to print size.

     One of the goals of the National Marketing Guide is that materials be consumer friendly,
     but there are no instructions as to what constitutes consumer-friendly text. In order to
     determine whether materials were consumer friendly, we added two questions on this
     subject to each review instrument. We asked, “Is this piece clear or confusing?” and “Is
     this piece jargon-free or written with jargon?” Our definition of a clear piece was that the
     meaning of all the text was obvious and not misleading. A jargon-free piece was one that
     did not contain jargon, or it contained jargon that was likely to be familiar to Medicare
     beneficiaries (e.g., primary care physician). We defined jargon as (1) technical language
     (i.e., words, terms, phrases, and acronyms specific to a certain field); and (2) sentences
     with strings of big words, overblown phrases, “-izing” words (e.g., finalizing, utilizing),
     invented words (e.g. signage), legalese, or bureaucratese. We recognize that determining
     whether pieces of writing are consumer friendly is a subjective process. Therefore, we
     developed the above criteria which we believe are fair, and applied them systematically.

     See Appendix B for more detail on how we reviewed the marketing materials. As
     mentioned earlier, the National Marketing Guide’s language chart is in Appendix A.

     This study was conducted in accordance with the Quality Standards for Inspections issued
     by the President’s Council on Integrity and Efficiency.




  1998 Marketing Materials                     8                                     OEI-03-98-00271
                                   FINDINGS

Few 1998 approved marketing materials were in full
compliance with the National Marketing Guide
      Eighty-seven percent (278 of 319) of marketing materials which we reviewed (1)
      contained statements that are specifically prohibited, (2) had missing, incomplete, or
      inaccurate information, or (3) did not meet print-size requirements. All of these 1998
      materials had been approved by HCFA regional offices.

Forty-eight percent of advertisements and sales brochures contained prohibited
statements

      Managed care plans are prohibited from advertising with statements that might mislead
      beneficiaries. Examples of such statements are in the “Must Use/Can’t Use/Can Use”
      language chart (see Appendix A). Of the 176 advertisements and sales brochures we
      reviewed, 48 percent contained one or more prohibited statements.

      We found prohibited statements on a variety of subjects. Regarding benefits, for example,
      an acceptable phrase in the language chart is “Minimal copays will apply.” We found
      advertisements and sales brochures that contained the prohibited statement, “Minimal
      copays may apply.” If plan premiums are mentioned, managed care plans must state that
      beneficiaries must continue to pay the Medicare Part B premium. But, we reviewed
      advertisements and sales brochures that contained the prohibited statement “no premium.”
      This might mislead Medicare beneficiaries into thinking they no longer need to pay the
      Medicare Part B premium. On the subject of quality, plans can use superlatives or
      comparisons when they are substantiated (the source must be identified in the advertising
      piece). Yet advertisements and sales brochures contained unsubstantiated superlatives,
      such as “Access to the best physicians, specialists and hospitals in the area,” and “The best
      doctors are part of our team.”

Seventy-seven percent of materials had missing, incomplete, or inaccurate
information

      The National Marketing Guide contains information that managed care plans must convey
      in their marketing materials so that beneficiaries can make well-informed choices and
      know their rights. More than three-quarters of the approved marketing materials we
      reviewed (246 of 319) had one or more problems with this kind of information. It was
      either missing, incomplete, or inaccurate. Not all of the information is of equal
      significance. But all of it is meant to help beneficiaries become informed. Different types
      of materials are required to have different kinds of information. The table below contains


   1998 Marketing Materials                     9                                     OEI-03-98-00271
      examples of information that must be conveyed to beneficiaries, and includes percentages
      for specific types of pieces where we found missing, incomplete, or inaccurate
      information.

      Table 1. Information that must be conveyed but was missing, incomplete, or inaccurate

                                                                                                        Percentage of
            Type of Marketing                                                                           Materials with
                Materials                           Information That Must Be Conveyed                     Problems
       Sales brochures               Explanation of difference between managed care and fee-for-service     100%

       Subscriber agreements         Appeal procedures                                                           90%
       Subscriber agreements and     General terms of contract between plan and Medicare program                 67%
       member handbooks              Beneficiary options if contract between plan and Medicare is not
                                     renewed                                                                     61%
                                     Increase in plan premium is only permitted at beginning of contract
                                     year                                                                        42%
       Advertisements and            All beneficiaries (except those with end stage renal disease or in
       sales brochures               hospice programs) may apply for enrollment                                  42%
                                     Premium information must include statement that beneficiary must
                                     continue to pay Medicare Part B premium                                     20%
      All pre-enrollment
      marketing materials           All routine care must be received from plan providers (a.k.a. lock-in)       42%
      Source: OIG review of marketing materials, conducted February/March 1999

Thirty-four percent of materials did not meet print-size requirements

      Of the 301 approved materials that we reviewed for print size, 34 percent (102 of 301) did
      not meet requirements. Managed care marketing materials for Medicare beneficiaries are
      required to be in 12-point or larger print size. Advertisements are the exception. The
      requirement for advertisements is that footnotes be the same print size as the sales
      message. Frequently, managed care plans put federally required information in an
      advertisement’s footnotes. Beneficiaries might miss the information if footnotes are
      smaller than the sales message.

      Of the marketing materials other than advertisements, 26 percent (36 of 139) were in print
      size smaller than 12 points. Forty-seven percent (65 of 139) were in 12 points or larger,
      and 27 percent (38 of 139) were unclear. Frequently, print size cannot be determined
      because the materials a managed care plan has submitted to HCFA are not in their final
      format, or the plan submitted a facsimile that has distorted print.

      In advertisements alone, 41 percent (66 of 162) had footnotes smaller than the sales
      message, 24 percent (39 of 162) had footnotes of the same size, 12 percent (20 of 162)
      did not have footnotes, and 23 percent (37 of 162) were too unclear to tell size. In our
      review, we found footnotes as small as 6 points when the sales message was 13 points.


   1998 Marketing Materials                               10                                                 OEI-03-98-00271
Nearly half of materials reviewed were not consumer friendly
     Separate from our review of whether marketing materials met Federal guidelines, we
     conducted a subjective review to determine whether they were consumer friendly (see
     criteria on page 8). We recognize that responsible, well-informed individuals might
     legitimately disagree about whether language is consumer friendly. We based our
     conclusions on what we believe was a fair and systematic review of marketing materials.

     We found 46 percent of materials (145 of 312) were confusing or contained jargon.
     Reviewing each criteria separately, 40 percent (125 of 312) were confusing, and 28
     percent (87 of 312) contained jargon. Twenty-one percent of the materials (67 of 312)
     were both confusing and contained jargon.

     In pre-enrollment materials, or materials that beneficiaries receive before enrolling in a
     managed care plan, we found 41 percent (85 of 205) were confusing or contained jargon.
     In member materials, or materials that beneficiaries receive after enrollment, we found 56
     percent (60 of 107) were confusing or contained jargon.

     Below are two figures that provide examples of confusing text and jargon that we found in
     marketing materials.


     Figure 1. Examples of Confusing Text in Marketing Materials

       “$0 copay for hearing test; one hearing aid for each ear every three (3) years,
       limited to $300 credit toward the purchase of each hearing aid for a total credit
       of $600.” (Advertisement)


                                        “Additional Health Services recommended by
        “All services and               Contracted providers after receiving the
        benefits for care and           Health Services authorized by the original
        conditions within               Referral are Covered if you obtain a new
        each of the following           Referral from your Primary Care Physician
        classifications shall be        before receiving such Health Services.”
        excluded from                   (Subscriber agreement)
        coverage under this
        plan except such
                                           “Unlimited maximum on generic prescriptions
        services as may be                 after reaching $1,500 limit.” (Advertisement)
        specifically provided.”

        (Summary of benefits)




  1998 Marketing Materials                   11                                     OEI-03-98-00271
   Figure 2. Examples of Jargon in Marketing Materials

                                 “...notice of an adverse reconsideration decision”
     “WORLDWIDE                  (Subscriber agreement)
     EMERGENT
     AND/OR OUT-OF-
     AREA URGENT
                                “...capitation, case rates,
     CARE COVERAGE”                                                             “supplemental
                                fee-for service and
     (ADVERTISEMENT)                                                          charge maximum”
                                incentive payments,”
                                                                               (Sales brochure)
                                (Member handbook)


                 “stop loss protection”                                     “Medical GP
          “utilization management services”
                     “subrogation”
                                                                               name”
                 (Subscriber agreement)                                   (Application form)


                                 “community referral specialist”
                               “Affiliated Community Physicians”
                                  “Medical Group Physician”
                                        (Member handbook)


   Source: OIG review of marketing materials, conducted February/March 1999



   Marketing materials that are not clear and easy to understand may affect beneficiaries’
   ability to make informed health-care choices.




1998 Marketing Materials                            12                                     OEI-03-98-00271
                     RECOMMENDATIONS

   Our findings from this report and our companion report, Medicare Managed Care: Goals
   of National Marketing Guide (OEI-03-98-00270), wherein we surveyed users of the
   Medicare Managed Care National Marketing Guide and obtained data on marketing-
   material reviews, provide evidence that the National Marketing Guide, while improving
   some aspects of the marketing-material review process, was not very successful at meeting
   its most important goal. That goal is to provide Medicare beneficiaries with accurate and
   consumer friendly marketing materials. Inaccurate and confusing materials may affect
   beneficiaries’ ability to make informed health-care choices.

   We recommend that HCFA:

 <	 update the National Marketing Guide. The National Marketing Guide should further
    clarify which information is specifically prohibited or required in marketing materials.
    The National Marketing Guide should provide model materials that are accurate and
    easy to read. It should clarify policy and operational instructions regarding the lead and
    local regional office responsibilities, the Use and File System (which allows plans to
    distribute sales material without prior approval), and the health plans’ use of checklists
    for member materials. It should also ensure that checklists for member materials contain
    all the required information.

 <	 standardize and mandate use of member materials. The HCFA should work toward
    standardizing as many types of member materials as possible. Managed care plans
    should be required to use these materials when communicating with their enrolled
    Medicare beneficiaries.

 <	 develop standard review instruments. These review instruments should be used by
    HCFA staff in determining if marketing materials (both pre-enrollment and member)
    contain all required information and do not contain prohibited information.

 <	 establish a quality control system. The HCFA should periodically review a nationwide
    sample of previously approved marketing materials (both pre-enrollment and member) to
    determine if they meet Federal marketing guidelines.

 <  track marketing-material reviews consistently and uniformly across all regions.

 <	 conduct meetings to review Federal marketing requirements with managed care
    plans that continually submit materials not in compliance with the requirements.

 <	 provide training on the use of the National Marketing Guide for HCFA reviewers
    and managed care plans.


1998 Marketing Materials                   13                                     OEI-03-98-00271
AGENCY COMMENTS

     The Health Care Financing Administration (HCFA) reviewed this report and the
     companion report on goals of the National Marketing Guide and concurred with our
     recommendations. We summarized the agency’s comments below, however, the full
     comments are in Appendix C.

   <	 update the National Marketing Guide. The agency is updating the National Marketing
      Guide, including checklists and model letters. They are also clarifying what is allowed
      and prohibited in marketing materials. As they believe the Use and File System is an
      important tool, they plan to develop materials to promote a better understanding of its
      operation.

   <	 standardize and mandate use of member materials. Work toward standardizing
      certain materials has already begun. As of contract year 2000, health plans contracting
      with HCFA must use a standardized Summary of Benefits. In the future, beneficiary
      notifications such as the Evidence of Coverage will be standardized, and their mandatory
      use will be phased in.

   <	 develop standard review instruments. The agency’s goal is to have a new and
      comprehensive data collection instrument, called the Plan Benefit Package, fully
      implemented in contract year 2001. This instrument will have multiple uses, including a
      standardized way to collect descriptions of benefits from health plans. The instrument
      can then be used to review health plan marketing materials. In the meantime, a modified
      version of a prior data collection instrument will be used. In addition, the Product
      Consistency Team, comprised of representatives from all ten HCFA regional offices, will
      meet monthly. Through ongoing dialogue, the team is expected to uncover and correct
      any inconsistencies in operational or policy interpretations of standardized materials.

   <	 establish a quality control system. The HCFA has established procedures for verifying
      that all final versions of beneficiary notices are the same as the versions HCFA approved.
      They also plan to review a sample of actual printed marketing materials from a random
      sample of health care organizations. The agency has also established a quality control
      system in their pilot study of the effectiveness of contracting the marketing material
      review to a single national contractor. Moreover, the Product Consistency Team will be
      critical to overall quality control efforts.

   <	 track marketing-material reviews consistently and uniformly across all regions.
      The HCFA regional offices will be required to track receipt and approval of all
      marketing materials when the new Health Plan Management System becomes operational
      in 2000. The Managed Care Information System, which is currently used by a number of
      the regional offices, will become part of the new system.




  1998 Marketing Materials                   14                                    OEI-03-98-00271
   <	 conduct meetings to review Federal marketing requirements with managed care
      plans that continually submit materials not in compliance with the requirements.
      The HCFA is in the process of updating a contractor performance monitoring protocol.
      The revised protocol will require HCFA reviewers who find a pattern of noncompliant
      marketing submissions to take action, including meeting with managed care plans. As
      the agency continues to review its marketing material review program, it will determine
      additional steps that need to be taken, including sanctioning.

   <	 provide training on the use of the National Marketing Guide for HCFA reviewers
      and managed care plans. The HCFA currently includes a marketing session in their
      annual training program for reviewers. They plan to expand the program to address the
      needs of contracting health plans. In addition, they expect that Product Consistency
      Team meetings will promote better understanding of the National Marketing Guide.


OIG RESPONSE

     We appreciate the comprehensiveness of HCFA’s comments. We believe the agency’s
     stated efforts can result in comparable and understandable materials which beneficiaries
     need to make informed health-care choices. We are hopeful that the update of the
     National Marketing Guide will include clarification of lead and local regional office
     responsibilities, and clarification as to whether health plans must submit checklists along
     with the member materials they submit for HCFA’s review. These two elements of the
     guidelines were not specifically mentioned in the agency comments regarding various
     elements of the guidelines that would be updated.

     We have one other concern regarding the Product Consistency Team. The agency states
     they will be relying on the team to play a critical role in quality control, to uncover and
     correct inconsistencies in operational or policy interpretations of standardized materials,
     and to update the National Marketing Guide as needed. The past team was not fully
     effective in these areas, and we are hopeful that the new team has the tools and authority
     needed to accomplish these important objectives.




  1998 Marketing Materials                    15                                      OEI-03-98-00271
                                                                                            APPENDIX A

            National Marketing Guide’s Language Chart in 1998
Marketing Language: “Must Use/Can’t Use/Can Use” Chart

The following items: Lock-in, Eligibility, and Contract with Government, are required items in
advertising and marketing materials.

  Subject           Must Use                       Can't Use                     Can Use                   Reason
  Lock-in           • Enrolled members “must       • "Participating              • Enrolled members        HCFA requires
                      use (name of plan)             providers" unless you         “must use (name of      lock-in for all
                      (contracting, affiliated,      use plan name                 plan) (contracting,     media to inform
                      or name of plan                                              affiliated, or name     beneficiaries of
                      participating) providers”                                    of plan                 managed care
                                                                                   participating)          requirement.
                    • “Plan available to all                                       providers”
                      Medicare beneficiaries”                                                              Because of the
                                                                                                           length of the
                    MEDIA: All except                                                                      messages and the
                    outdoor advertising.                                                                   nature of outdoor
                    *Outdoor advertising has                                                               advertising, this
                    the option of excluding this                                                           topic does not
                    topic.                                                                                 apply to outdoor
                                                                                                           advertising.
                    * See definition of outdoor
                      advertising on page 124.


  Quality*                                         • Superlatives (e.g.          • Qualified               Quality is not a
                                                     highest, best)                superlatives (e.g.      required topic in
                                                                                   among the best,         marketing
                                                   • Unsubstantiated               some of the             materials.
                                                     comparisons                   highest) or
                                                                                   superlatives (e.g.
                                                                                   ranked number 1),
                                                                                   if they can be
                                                                                   substantiated
                                                                                   (Source must be
                                                                                   identified in the
                                                                                   advertising piece.)

                                                                                 • "Plan delivers
                                                                                   (adjective) quality
                                                                                   of care."

                                                                                 • Descriptions of
                                                                                   plan's initiatives
                                                                                   related to quality.

                                                                                 • Can use satisfaction
                                                                                   survey results.
                                                                                   (Must disclose year
                                                                                   and source.)

                                                                                MEDIA: All
* HCFA has the discretion to disapprove language based on site visit reviews identifying substantial deficiencies in plan
operation.

      1998 Marketing Materials                                16                                               OEI-03-98-00271
                                                                                     APPENDIX A

Subject          Must Use                   Can't Use              Can Use                         Reason
Premiums/        • If a plan premium is     • "No premium"         The following may be used.      • Materials must
Costs              mentioned, it must be                                                             disclose that
                   accompanied by a         • "No premiums or      • "No plan premium."              beneficiaries
                   statement that             deductibles"                                           must continue to
                   beneficiaries must                              • "Plan premium equals            pay the Part B
                   continue to pay Part B   • "Free"                 _______"                        premium and
                   premium or Medicare                                                               continue their
                   premium.                                        • $0 plan premium                 Medicare Part B
                                                                                                     coverage while
                 MEDIA: Print                                      • "At no extra cost to you"       enrolled in the
                                                                     but only if referring to a      HMO.
                 • TV-Part B caveat must                             specific benefit
                   be flashed in TV safe
                   range or mentioned in                           • "No plan premiums or          Because of the
                   narration.                                        deductibles"                  length of the
                                                                                                   messages and the
                                                                   • "No premiums or               nature of outdoor
                                                                     deductibles (you must         advertising, this
                                                                     continue to pay the           topic does not
                                                                     Medicare Part B               apply to outdoor
                                                                     premium)"                     advertising.

                                                                   • "No premium beyond
                                                                     your monthly Medicare
                                                                     payment"

                                                                   • "No premiums other than
                                                                     what you currently pay
                                                                     for Medicare


                                                                   MEDIA: All except outdoor
                                                                   advertising (See “Must
                                                                   Use”)

                                                                   • "Plan premium"

                                                                   MEDIA: Outdoor. Outdoor
                                                                   advertising has the option of
                                                                   excluding this topic.

Testimonials     • Content must comply      • Cannot have non-
                   with HCFA marketing        members say
                   guidelines, including      he/she belongs.
                   statements by              (Can use actors,
                   members.                   but they cannot
                                              say they belong to
                                              the plan.)

                                            • Speaker must
                                              identify specific
                                              health plan
                                              membership

                                            MEDIA: All




   1998 Marketing Materials                             17                                             OEI-03-98-00271
                                                                                        APPENDIX A

Subject             Must Use                    Can't Use                    Can Use                  Reason
Contract with the   • Must include one of       • "Recommended or            •   "HMO with a          Because of the
Government            the phrases from the        endorsed by Medicare"          Medicare contract"   length of the
                      can use column                                                                  messages and the
                                                • Cannot imply that plan     •   "A federally         nature of outdoor
                    MEDIA: All except              has a unique or custom        qualified HMO        advertising, this
                    outdoor. Outdoor               arrangement with the          with a Medicare      topic does not
                    advertising has the            government, e.g.:             contract"            apply to outdoor
                    option of excluding this      -- "Special contract                                advertising.
                    topic.                            with Medicare"         •   "A federally
                                                  -- "Special plan for           qualified Medicare
                                                      Medicare                   contracting HMO"
                                                      beneficiaries"
                                                                             •   "Medicare
                                                                                 approved HMO"

                                                                             MEDIA: All

Physicians and      •   If the number of        •   Implication that         •   "(Plan's name)       •   Do not use the
Other Health            physicians and other        providers are                participating            word
Care Providers          health care                 available exclusively        providers"               “participating”
                        providers is used, it       through the particular                                when referring
                        must include only           HMO unless such a        •   "Network"                to plan
                        those available to          statement is true            providers                providers
                        Medicare                                                                          (unless you use
                        beneficiaries           •   "Participating           •   "Contracting"            plan name),
                                                    providers" unless you        providers                since it could
                                                    use plan name                                         be confused
                    MEDIA: TV, radio,                                        •   "Affiliated"             with a
                    outdoor                                                      providers                participation
                                                                                                          agreement
                    •   If the number of                                     •   Number of                with Medicare.
                        physicians and other                                     providers should         Plans should
                        health care providers                                    be same total            either use
                        is used, it must                                         number of                “contracting”
                        include only                                             Medicare                 or “plan name”
                        providers available                                      providers                when referring
                        to Medicare                                                                       to plan
                        beneficiaries. If a                                                               providers.
                        total number is used                                 MEDIA: All
                        it must separately
                        delineate the number
                        of primary care
                        providers and
                        specialists included.


                    MEDIA: Print and
                    direct mail

Limited Open                                                                 •   Describe open
Enrollment                                                                       enrollment period
Period                                                                           if open enrollment
                                                                                 is not continuous

                                                                             MEDIA: All




   1998 Marketing Materials                               18                                              OEI-03-98-00271
                                                                                     APPENDIX A


Subject          Must Use            Can't Use                  Can Use                       Reason
Eligibility      •   Must indicate   •   "No health             •   "Anyone with              • Since all Medicare
                     that all            screening" unless          Medicare may apply"         beneficiaries may
                     Medicare            specific mention is                                    enroll in Medicare-
                     beneficiaries       made of ESRD and       •   "Medicare entitled"         contracting HMOs,
                     may apply.          hospice                                                you may not refer to
                                                                •   "Individuals eligible       your plan as a “senior
                                     •   "Seniors" unless           for Medicare"               plan” (unless you
                                         term appears with                                      refer to it as part of
                                         "and all other         •   "Individuals on or          the plan name). The
                                         Medicare eligibles"        entitled to Medicare"       term “senior plan”
                                                                                                implies that disabled
                                     •   "Plan designed         •   "Medicare                   beneficiaries may not
                                         especially for             beneficiaries"              enroll.
                                         seniors"
                                                                •   "Medicare enrollees"
                                     •   "Senior plan" unless                                 • Medicare Part A is
                                         part of plan name      •   "People with or on          not a requirement for
                                                                    Medicare"                   enrollment in
                                     •   "Individuals age 65                                    Medicare-contracting
                                         and over"              •   "Seniors and all other      HMOs. Plans may
                                                                    Medicare-eligibles"         require beneficiaries
                                                                                                who are not covered
                                     •   "You must have         •   "No physicals               under Part A to
                                         Parts A and B of           required"                   purchase equivalent
                                         Medicare"                                              coverage directly
                                                                •   "No health screening"       from the plan
                                                                    if a caveat is included
                                                                    for ESRD and hospice

                                                                •   "If you do not have
                                                                    Medicare Part A, you
                                                                    may purchase Part A
                                                                    coverage from Social
                                                                    Security or purchase
                                                                    equivalent coverage
                                                                    from the HMO"


                                                                MEDIA: ALL

Claims                               • "No paperwork"           • "Virtually no               • Members may be
Forms/                                                            paperwork"                    required to submit
Paperwork                            • "No claims or                                            bills or claims
                                       paperwork/complicat      • "No paperwork when            documentation when
                                       ed paperwork"              using plan providers"         using out-of-plan
                                                                                                providers.
                                     • "No claims forms"        • "Hardly any
                                                                  paperwork"

                                                                MEDIA: All




   1998 Marketing Materials                            19                                              OEI-03-98-00271
                                                                                      APPENDIX A

Subject           Must Use                    Can't Use            Can Use                           Reason
Benefits

a. Comparison     •    If premiums and                             • "Premiums and benefits          • Premiums,
                      benefits vary by                               may vary by county" or            benefits and /or
                      geographic area, must                          "These benefits apply to          copayment
                      clearly state this or                          the following counties"           amounts may
                      must clearly state                                                               vary by county
                      geographic area in                           • "Except for ________              within a given
                      which differing                                county"                           service area.
                      premiums and                                                                     This must be
                      benefits are                                                                     clearly conveyed
                      applicable.                                  MEDIA: All                          in all marketing
                                                                                                       materials.
                  • If only benefits vary,
                    clearly state
                    geographic area in
                    which benefits are                                                               • If benefits are
                    applicable.                                                                        specified within
                                                                                                       the piece, any
                  MEDIA: All                                                                           applicable
                                                                                                       copayment
b. Limitations                                • Minimal copays     • State exact dollar amount         should be stated
                                              may apply              limit on any benefit              or you may
                                                                                                       include the
                                              • At no extra cost   • "Limitations and                  general
                                              to you or free, if     restrictions may apply"           statement as
                                              copays apply                                             shown.
                                                                   • "Minimal copayments will
                                                                     apply"

                                                                   • "Minimal copayments may
                                                                     vary by county”

                                              • "We cover                                              Prescription
c. Prescription   • If prescription drugs       prescription       • State which benefits are          drugs are an
   Drugs            are mentioned and           drugs" unless        subject to limitations            important
                    have limitations,           accompanied by                                         benefit that
                    must say:                   reference to       • Fully disclose dollar             must be
                    • limited drug              limitation           amount of copayments and          adequately
                        coverage;                                    annual limit                      described. Any
                    • drug coverage           • "Prescription                                          dollar limits
                        benefits subject to     drug coverage"     • If limited, you must say so       must be clearly
                        limitations; or         unless                                                 conveyed.
                    • up to xxx annual          accompanied by     • Limited drug coverage
                        limit or xxx limit      reference to         with xx copayments and
                        per year and other      limitation           xxx annual limit
                        limits and
                        restrictions may                           • "Prescriptions must be
                        apply.                                       filled at contracting or plan
                                                                     affiliated pharmacies."

                                                                   MEDIA: All




   1998 Marketing Materials                               20                                             OEI-03-98-00271
                                                                                        APPENDIX A

Subject        Must Use                   Can't Use                   Can Use                      Reason
Definitions                               • "Life threatening"        • Emergency --               • Emergency criteria
                                                                        definition as stated in      should be
                                          • “True emergency”            current HCFA policy.         explained per
                                                                                                     Medicare
                                                                      • Urgent -- definition         guidelines rather
                                                                        as stated in current         than in the
                                                                        HCFA policy.                 commercial
                                                                                                     context.
                                                                      MEDIA: Direct mail

Drawings/                                 • "Eligible for free        • "Eligible for a free       • It is a prohibited
prizes                                      drawing and prizes"         drawing and prizes           marketing practice
                                                                        with no obligation"          to use free gifts and
                                          MEDIA: Direct mail,                                        prizes as an
                                          flyers, print advertising   • "Free drawing                inducement to
                                                                        without obligation"          enroll. Any
                                                                                                     gratuity must be
                                                                      MEDIA: Direct mail,            made available to
                                                                      flyers, print advertising.     all participants
                                                                                                     regardless of
                                                                                                     enrollment. The
                                                                                                     value of any gift
                                                                                                     must be less than
                                                                                                     the nominal
                                                                                                     amount of $10.

Sales          • "A sales                 • "A plan                                                • This phrase must
presentation     representative will be     representative will be                                   be used whenever
s                present with               available to answer                                      beneficiaries are
                 information and            questions."                                              invited to attend a
                 applications."                                                                      group session with
                                                                                                     the intent of
               MEDIA: Flyers,                                                                        enrolling those
               invitations and print                                                                 individuals
               advertising                                                                           attending.

               •    "A sales                                                                       • This phrase must
                   representative may                                                                be included on any
                   call."                                                                            response card in
                                                                                                     which the
               MEDIA: Response card                                                                  beneficiary is asked
                                                                                                     to provide a
               • A                                                                                   telephone number.
                 telecommunications
                 device for the deaf
                 (TDD) is available to
                 get additional
                 information or set up
                 a meeting with a
                 sales representative.

               • For accommodation
                 of persons with
                 special needs at sales
                 meetings, call
                 (Health Plan Phone
                 Number).



   1998 Marketing Materials                               21                                               OEI-03-98-00271
                                                                       APPENDIX B


         OIG’s Methods For Reviewing Marketing Materials
Marketing material medium. Our review was of hand-held printed marketing materials. We
did not review materials designed for radio, television, Internet, or billboards. Nor did we review
telemarketing scripts or slide presentations.

Universe of materials. All 319 pieces we reviewed had been reviewed and approved by the
Health Care Financing Administration's (HCFA's) regional staff in 1998 and were on file in those
offices.

Source of materials. A majority of the materials we reviewed came from 3 of the 10 HCFA
regions. Of the 319 pieces that we reviewed, 249 came from these three regions. We selected
these regions because they represented a variety of managed care experience and differing
population sizes of Medicare beneficiaries. We went on-site to the three regional offices and
reviewed all print materials approved within one calendar quarter of 1998. We also reviewed 10
mailed pieces of approved print materials from the remaining 7 HCFA regional offices.

Types of materials. Prior to determining the types of materials to review, we reviewed Federal
marketing guidelines in the Health Maintenance Organization/Competitive Medical Plan Manual
and the Medicare Managed Care National Marketing Guide, referred to as the National
Marketing Guide in this report. We compiled a list of types of marketing materials that were
addressed in these two sources. Most marketing materials fit into one of two broad categories:
pre-enrollment materials and member materials. The former includes advertising and any kind of
promotional materials used to interest Medicare beneficiaries in the managed care plan. The latter
consists of communications to members of the plan. These might be letters notifying members of
a change in providers or a change in benefits; information about a claim or payment; subscriber
agreements conveying rights of the member as well as member and plan responsibilities; and
letters confirming enrollment and disenrollment. A few pieces, e.g., Directory of Providers, can
fit into both categories. Such pieces are often in promotional packets, and they are also given to
members. In our analysis, we counted them as pre-enrollment materials. The types of print
materials we did not review (see tables on page 22) were ones not specifically referred to in the
two sources of Federal guidelines mentioned above. We learned about these other types of print
materials during our on-site reviews and from respondents in our surveys.

Review instruments. We created 24 types of review instruments to match the variety of
pre-enrollment and member materials described in Federal guidelines. Our instruments contained
questions related to prohibitions and requirements in the National Marketing Guide. We
formulated the questions from text in the "Must use/Can’t use/Can use" language chart,




    1998 Marketing Materials                    22                                     OEI-03-98-00271
                                                                        APPENDIX B

model member materials, checklists, and paragraphs highlighting important things for plans to
remember when creating materials. The instruments contained from 5 to 86 questions depending
on the type of piece reviewed. Questions addressed issues ranging from the most critical
information requirements (e.g., advertisements with premium information must state that
beneficiaries must continue to pay their Medicare Part B premium) to formatting (i.e., print size).
The longest review instrument (86 questions) was for the subscriber agreement. This was actually
a two-part instrument with the second part focusing on appeal rights and procedures. We used
this second part for the determination and appeal sections of the subscriber agreements, and for
two other types of materials: (1) the standard determination letter (used when a member's request
for a service is denied) and (2) the notice of non-coverage (necessary for members who believe
they were discharged too soon from a hospital). Both of these materials include members' rights
to appeal and the appeal procedures. The instrument's questions addressed the many steps in the
appeal process, including standard and expedited determinations, standard and expedited
reconsiderations, and hospital discharges.

Format of review questions. Possible answers to questions in the review instruments were "Yes,
No, Not mentioned, Can't tell." An example of a question is, "Are footnotes in this ad the same
size as the sales message?" We would select "Yes" as the answer if the footnotes were the same
size, "No" if the footnotes were not the same size, "Not Mentioned" if the ad did not contain
footnotes, and "Can't Tell" if the print size was too blurred for us to tell. Frequently, plans submit
to HCFA photocopies or facsimiles that have distorted print. They also submit e-mails that
contain the text of their marketing materials but no indication of the final format.




    1998 Marketing Materials                     23                                      OEI-03-98-00271
                                                                                    APPENDIX B
Table 1. Types of print pre-enrollment materials we reviewed and types we did not review

                                 PRE-ENROLLMENT MATERIALS
              Types Reviewed                                          Types Not Reviewed
 < Enrollment application forms               < Instructions for enrollment application forms; translator and/or
 < Advertisements - newspapers,                 witness forms
   magazines                                  < Event invitations; event registration forms
 < Advertisements - direct mail, letters to   < Letters asking former member to re-join plan
   non-Medicare members turning 65            < Letters asking beneficiary for opportunity to explain plan in
 < Sales brochures, booklets, leaflets          their home
 < Summaries of Benefits                      < Letters from a provider promoting the plan
 < Directories of Providers                   < Letters saying plan tried to contact beneficiary
 < Member Handbooks                           < Surveys for beneficiary to evaluate a sales meeting
                                              < Surveys for beneficiary to evaluate readability of sales material
                                              < Envelopes; postcards; thank you cards

Table 2. Types of print member materials we reviewed and types we did not review

                                         MEMBER MATERIALS
                    Types reviewed                                         Types Not Reviewed
 <   Letters confirming enrollment                        <   Member card materials
 <   Letters denying enrollment                           <   Letters with retroactive date of enrollment
 <   Letters confirming voluntary disenrollment           <   Disenrollment application forms
 <   Letters confirming involuntary disenrollment         <   Letters denying disenrollment
 <   Letters describing annual changes in benefits,       <   Letters confirming disenrollment after date of death
     premiums, providers, etc.                            <   Letters regarding premium refund when member
 <   Letters describing a mid-year change in benefits,        paid unnecessarily
     premiums, providers, etc.                            <   Schedules of co-payments
 <   Letters re: member’s failure to pay plan premium     <   Letters notifying member that benefits are
 <   Letters with plan’s determination of member’s            exhausted
     request for service                                  <   Invoices; payment for claims
 <   Letters providing status of an appeal                <   Letters describing Advance Directive (living will)
 <   Letters providing status of a filed grievance        <   Letters requesting update of member’s name,
 <   Notices of Non-Coverage (used if beneficiary             address, and phone number
     believes discharge from hospital is too early)       <   Letters informing members of senior advocacy
 <   Letters describing Physician Incentive Plan              board
 <   Letters notifying members that provider is no        <   Letters thanking member for sharing concerns
     longer with plan                                     <   Birthday cards; invitations to events for members
 <   Letters addressing operational changes (e.g.,        <   Letters requesting referrals from current member of
     change in business hours)                                any potential new members
 <   Letters responding to a member’s request for         <   Surveys to determine demographics of plan’s
     information                                              elderly members who are still working
 <   Subscriber agreements (contains members’ rights,     <   Surveys of member satisfaction
     members’ and plan’s responsibilities; covered and    <   Surveys of member reasons for disenrollment
     non-covered services)                                <   Surveys of member’s health
                                                          <   Wellness materials (disease prevention information)




     1998 Marketing Materials                            24                                          OEI-03-98-00271
                                APPENDIX C




1998 Marketing Materials   25        OEI-03-98-00271
                                APPENDIX C




1998 Marketing Materials   26        OEI-03-98-00271
                                APPENDIX C




1998 Marketing Materials   27        OEI-03-98-00271
                                APPENDIX C




1998 Marketing Materials   28        OEI-03-98-00271
                                APPENDIX C




1998 Marketing Materials   29        OEI-03-98-00271
                                APPENDIX C




1998 Marketing Materials   30        OEI-03-98-00271
                                         C
                                APPENDIX B




1998 Marketing Materials   31        OEI-03-98-00271
                                APPENDIX C




1998 Marketing Materials   32        OEI-03-98-00271
